IN THE SUPREME COURT OF THE UNITED STATES

JOHN DOE, AKA CHEYENNE MOODY DAVIS
Petitioner
No: 19-0078

vs.

USA
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

NOEL J. FRANCISCO
Solicitor General
Counsel of Record
July 22, 2019
cc:
JOHN S. WILLIAMS
WILLIAMS & CONNOLLY LLP
725 TWELFTH STREET, NW
WASHINGTON, DC 20005
JOANNA SILVER
OFFICE OF THE FEDERAL PUBLIC
DEFENDER FOR THE DISTRICT OF
MARYLAND
6411 IVY LANE
SUITE 710
GREENBELT, MD 20770

